                       UNITED STATES DEPARTMENT OF EDUCATION
                             OFFICE OF INSPECTOR GENERAL
                                 1999 BRYAN STREET, HARWOOD CENTER, SUITE 1440 

                                               DALLAS, TEXAS 75201-6817 

                                                  PHONE: (214) 661-9530 

                              AUDIT FAX: (214) 661-9531 INVESTIGATION FAX: (214) 661-9589




                                                      October 23, 2006


                                                                                                 Control Number
                                                                                                 ED-OIG/A06G0008

Superintendent Sandy Garrett
State Superintendent of Public Education
Oklahoma State Department of Education
2500 North Lincoln Boulevard
Oklahoma City, Oklahoma 73105-4599

Dear Superintendent Garrett:

This Final Audit Report, entitled Data Quality Review of the Oklahoma Consolidated State
Performance Report, presents the results of our audit. The purpose of the audit was to determine
whether Oklahoma State Department of Education’s (OSDE) required reporting of graduation
and dropout rates in the 2003-2004 Consolidated State Performance Report (CSPR) were
supported by reliable data and met the requirements of the Elementary and Secondary Education
Act (ESEA), as amended. Our review covered the reporting period of July 1, 2003 – June 30,
2004.




                                                   BACKGROUND 



Sections 9302 and 9303 of the ESEA, as amended by the No Child Left Behind Act of 2001
(NCLB), Public Law 107-110, provide to States the option of applying for and reporting on
multiple ESEA programs through a single consolidated application and report.

The CSPR includes the following ESEA programs:

   •   Title I, Part A, Part B, Subpart 3, Part C, Part D, and Part F
   •   Title II, Part A and Part D
   •   Title III, Part A
   •   Title IV, Part A, Subparts 1 & 2 and Part B
   •   Title V, Part A
   •   Title VI, Section 6111 and Part B




          Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations
ED-OIG/A06G0008 	                                                                   Page 2 of 10


The NCLB CSPRs consist of two information collections. Part I of the CSPR must be submitted
in January and provide information from the prior school year related to the five ESEA Goals.
Part II of the CSPR, due to the Department by April 15, consists of information related to State
activities and the outcomes of specific ESEA programs. The five ESEA Goals established in the
June 2002 Consolidated State Application were as follows:

   • 	 Performance Goal 1: By 2013-2014, all students will reach high standards, at a
       minimum attaining proficiency or better in reading/language arts and mathematics.
   • 	 Performance Goal 2: All limited English proficient students will become proficient in
       English and reach high academic standards, at a minimum attaining proficiency or better
       in reading/language arts and mathematics.
   • 	 Performance Goal 3: By 2005-2006, all students will be taught by highly qualified
       teachers.
   • 	 Performance Goal 4: All students will be educated in learning environments that are
       safe, drug free, and conducive to learning.
   • 	 Performance Goal 5: All students will graduate from high school.

For the time period of our review, school years 1999-2000 through 2002-2003, OSDE processed
manually collected aggregate graduate data, disaggregated by ethnic group, with no student-level
information. Dropout data contained some student-level information and was also manually
gathered. The data were then entered into an electronic file and transferred to the mainframe
computer system databases. The current computer system is not a statewide system, does not
have unique student identifiers, does not track student-level data, and does not have the
capability to track students over time or by cohort.

OSDE issued a contract in June 2005 for a five year phased development of a State student
information system, known as the Wave. Unique statewide student testing numbers, to be
assigned to students for the duration of their enrollment in Pre-Kindergarten through 12th grade
education, will be issued as part of this system. Alignment with National Center for Education
Statistics (NCES) codes and definitions is required whenever possible. The Wave includes an
on-line student locator component that will record the movement of students from one school to
another throughout the year. Once populated with statewide data, the Wave will provide the
basis for longitudinal analysis of student performance and will enable the OSDE to derive
accurate enrollment, dropout and graduation statistics as defined by Department of Education
and required under NCLB. It is planned that the Wave will have four years of student level data,
necessary for tracking and reporting student data by cohort, starting in the 2009-2010 school
year.

The definitions below are terms used when discussing the cohort.

   • 	 Graduate – An individual who has completed high school in the standard number of
       years (4 years) and has received formal recognition from school authorities.
   • 	 Dropout – an individual who
          a. 	 Was enrolled in school at some time during the previous school year; and
          b. 	 Was not enrolled at the beginning of the current school year; and
          c. 	 Has not graduated from high school or completed a state- or district-approved
               educational program; and
          d. 	 Does not meet any of the following exclusionary conditions:
ED-OIG/A06G0008 	                                                                       Page 3 of 10


                   1) Transferred to another public school district, private school, or state- or
                        district-approved educational program (including correctional or health
                        facility programs);
                   2) Temporary absence due to suspension or school-excused illness; or
                   3) Death.
   • 	 Leaver – A student who was enrolled or in attendance during a school year and who
       stopped attending during the year or did not return the following year. School leavers are
       categorized as dropouts, or students who withdraw to: (a) enroll in other public or private
       schools in the state; (b) enroll in schools outside the state; (c) enroll in colleges or
       General Education Development (GED) preparation programs; or (d) enter home
       schooling.
   • 	 Cohort - Students who started high school (i.e., ninth grade) plus student transfers in,
       less student transfers out in year Y; plus student transfers in, less student transfers out in
       year Y+1; plus student transfers in, less student transfers out in year Y+2; plus student
       transfers in, less student transfers out in year Y+3.

For our review, we selected the three largest school districts in Oklahoma--Tulsa Public Schools
(TPS), Oklahoma City Public Schools (OKCPS), and Putnam City Schools (PCS)--and went to
the three largest high schools within those districts.




                                     AUDIT RESULTS 



OSDE met the requirements of ESEA by reporting graduation and dropout rates. However,
OSDE used a graduation rate formula for 2002-2003 that did not meet the requirements of the
NCLB graduation rate definition. In addition, graduation data were found to be reliable, OSDE
calculated graduation and dropout rates reported in the 2003-2004 CSPR using dropout data that
were not reliable. In its comments to the draft report, OSDE concurred with our findings and
recommendations. The full text of OSDE’s comments on the draft report is included as an
Attachment to the report.


FINDING NO. 1 – OSDE’s Approved Graduation Rate Formula Did Not Meet
                NCLB Requirements

OSDE used a graduation rate formula for school year 2002-2003 that did not meet the
requirements of the NCLB graduation rate definition.

NCLB Graduation Rate Definition

NCLB defines graduation rates as the percentage of students who graduate from high school with
a regular diploma in the standard number of years. The standard number of years is determined
by a state and is generally based on the structure of the school. For example, a high school with
grades 9 through 12 would have 4 as its standard number of years while a school with grades 10
ED-OIG/A06G0008 	                                                                   Page 4 of 10


through 12 would have 3 as its standard number of years. This method of measure is a
cumulative indicator derived from student-level information and reported as a function of entry
year and graduation year. This method uses a cohort definition to track students through the
years spent in high school.

OSDE Graduation Rate Formula

OSDE did not have a comprehensive statewide data system capable of tracking, calculating, and
reporting student data by cohort. Without the capability to calculate a cohort graduation rate,
OSDE requested approval to use a synthetic graduation rate formula. In May 2003, the Secretary
of Education approved the proposed graduation rate formula as a part of the accountability plan
contained in the Oklahoma Consolidated State Application Accountability Workbook. The
synthetic graduation rate calculation, shown below, used dropout data for Grades 9-12 from a
given school year:

     Number of Students Graduating with a Regular Diploma Including Summer Graduates 


     Number of Students Graduating with a Regular Diploma Including Summer Graduates 

                                            +

                             Number of Grades 9-12 Dropouts 

                                            +

                           Number of Students Receiving GEDs 



OSDE Graduation Rate Formula Did Not Meet NCLB Requirements

Although the Department approved the formula, OSDE used a graduation rate formula for school
year 2002-2003 that did not meet the requirements of the NCLB graduation rate definition.
Specifically, the graduation rate formula did not measure graduates with a regular diploma in the
standard number of years (4 years), did not account for continuing students, and used dropout
data from a single school year for grades 9-12.

   • 	 OSDE collected and used the number of graduates for a given school year regardless of
       the number of years spent to achieve a regular diploma, which allows for the inclusion of
       graduates taking longer than 4 years. When this number includes graduates taking longer
       than 4 years, it overstates the graduation rate.

   • 	 The denominator included graduates, dropouts, and GED recipients but did not account
       for students that did not graduate but continued their high school education into the
       following year. Not accounting for continuing students also overstated the graduation
       rate.

   • 	 The formula used dropout data for a single school year for grades 9-12 which
       approximated annual dropout data for all grades instead of data that tracked only the
       students in the cohort. We did not have enough information to determine the effect of the
       resulting misstatement.
ED-OIG/A06G0008                                                                      Page 5 of 10


This occurred because OSDE’s current data collection system did not have the capability to track
data over the cohort. In addition, OSDE’s graduation data collection process did not include a
definition or requirement to report only those students that graduated in the standard number of
years and did not account for continuing students.

NCLB places emphasis on and strengthens the accountability for results. It is important that
graduation rates are accurate, not overstated or understated, because these rates are performance
measures considered by the Department, the State, and the public in comparison to other States’
performance. The information is also needed to assess school, district and State accountability.

OSDE and the Department are currently negotiating the graduation rate formula for 2004-2005
and forward that uses dropout data over the cohort. In addition, OSDE continues to implement
the Wave as the Statewide system, containing unique student identifiers, student-level
information, and the capability to track student data over the cohort.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
OSDE to—

1.1     Develop, implement, and execute a definition of a graduate in the standard number of
years for identifying and reporting graduate data.

1.2   Ensure that all students, including continuing students, are accounted for in the
denominator of the 2005-2006 and subsequent graduation rate formulas.

Auditee’s Comments

OSDE concurred with our finding and recommendations.


FINDING NO. 2 – Dropout Data Were Not Reliable

Although graduation data were found to be reliable, OSDE calculated graduation and dropout
rates reported in the 2003-2004 CSPR using dropout data that were not reliable.

Graduation and Dropout Data Reporting and Leaver Processing

In October of each school year, schools report aggregate graduation data, containing no student-
level information, for the previous school year directly to OSDE. The graduation data is
submitted in Application for Accreditation reports. Schools directly report dropout data with
student-level information by quarter and at the end of the school year on the Student Dropout
Report. OSDE does not collect leaver data except for dropout data. OSDE provided instructions
with the Application for Accreditation reports and issued Student Dropout Reporting Procedures
to guide schools in reporting requirements. OSDE also provided periodic updates on graduation
and dropout reporting during fall conferences with school superintendents, as well as ad hoc
support when contacted by school or district personnel. However, training was not provided to
all levels of personnel involved with graduation and dropout reporting. Although OSDE
ED-OIG/A06G0008 	                                                                      Page 6 of 10


personnel reviewed graduate numbers as a part of the Application for Accreditation reports, little
or no monitoring of graduate numbers to source documents was done and no monitoring of
dropout data to source documents was performed.

Schools process student leavers throughout the year. These leavers include transfers between
Oklahoma districts, transfers out of Oklahoma, and dropouts, among others. At the time a
student leaves, the school collects information about where the leaver is going, assigns a loss
code, and records the withdrawal information in their district system. Processing leavers and
reporting dropouts are separate but related processes. These processes can require multiple
decision points to determine whether a leaver will be reported as a dropout. A contributing
factor to the need for multiple decision points is that a single loss code can be applied to several
types of leaver. For example, loss code L4, can be assigned to transfers out of Oklahoma,
students returning to their home country, graduates and dropouts. OSDE requires a transfer to
another district, state, or country be supported by a request for records by the gaining school.
Without the request for records, the leaver must be reported as a dropout. In the case of a student
transferring out of Oklahoma, the school processes the withdrawal, collects information on
where the student is going, assigns a loss code of L4, and must track whether a request for
records is received from the gaining school and when. If the gaining school sends a request for
records by the end of the quarter in which the student withdrew, the school records the request,
sends the records, and no further action is required. If the gaining school does not send a request
for records by the end of the quarter in which the student withdrew, the school is required to
report the transferred student as a dropout on the Student Dropout Report. If the gaining school
subsequently makes a request for records, the school may remove the student from the dropout
report as long as the request was made prior to the end of the school year.

Graduation Data Reliability

To review graduation data, we selected a sample of graduates in school year 2002-2003. The
graduate sample data populates the numerator and is a factor of the denominator in the
graduation rate formula. All but one of the 252 graduate records reviewed were fully supported.
We determined the reported graduation data were reliable.

Dropout Data Reliability and Calculated Rates

OSDE calculated graduation and dropout rates reported in the 2003-2004 CSPR using dropout
data that were not reliable. Specifically, OSDE used dropout data that were not reliable in the
denominator of the graduation rate formula and the numerator of the dropout rate formula.

To review dropout data, we selected two samples to determine whether the dropouts among
leavers were correctly identified and reported. The first sample was of leavers over the four-year
cohort period, school years 1999-2000 through 2002-2003. Although OSDE could not track
leaver data by cohort, based on data available at the districts we created a cohort universe and
selected a sample of cohort leavers to review. Similarly, for the second sample we obtained
district data for leavers from grades 9-12 of the reporting year.

       • 	 Leavers and dropouts from the cohort leavers sample data populate the denominator
           of a cohort graduation rate formula. The dropouts of the last year of the cohort
           partially populate the numerator of the dropout rate. Of the 178 cohort leaver records
ED-OIG/A06G0008 	                                                                     Page 7 of 10


           reviewed, 42 (23.6 percent) had inadequate or no supporting documentation. Without
           sufficient supporting documentation, we could not determine whether the loss codes
           were accurate. In addition, 138 of the 178 cohort leavers were reportable as dropouts.
           However, 89 (64.5 percent) of the reportable dropouts were not reported by the
           schools on the Student Dropout Report to OSDE. The dropout data were not reliable
           and were underreported. If OSDE tracked a cohort and used a cohort graduation rate
           formula, these leaver data and dropout reporting deficiencies would have resulted in
           unreliable and inaccurate graduation and dropout rates.

       • 	 Dropouts from the reporting year leavers sample populate the denominator of the
           graduation rate formula and the numerator of the dropout rate formula. Of the 296
           reporting year leavers records reviewed, 66 (22.3 percent) had inadequate or no
           supporting documentation. Without sufficient supporting documentation we could
           not determine whether the loss codes were accurate. In addition, 212 of the reporting
           year leavers were reportable as dropouts. However, 103 (48.6 percent) of the
           reportable dropouts were not reported by the schools on the Student Dropout Report
           to OSDE. The dropout data were not reliable and were underreported, resulting in an
           overstated graduation rate and an understated dropout rate.

These deficiencies occurred because of inadequate guidance, training, and monitoring. In
addition, the withdrawal and dropout reporting processes and loss codes could be simplified.

NCLB increases the importance of data and the need for the Department to have data that are
reliable and valid. Unreliable data causes graduation and dropout rates to be inaccurate, either
overstated or understated. It is important that the data be reliable in order for the Department,
the State, and the public to compare their states' performance against other states’ performance
and to assess school, district, and State accountability.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
OSDE to—

2.1    Develop and provide necessary personnel with adequate training on graduation and
dropout data collection and reporting.

2.2     Monitor graduation and dropout data collection and reporting at the State, district, and
site levels.

2.3   Revise guidance for Gain/Loss codes, withdrawal definitions, and required
documentation, to achieve simplified withdrawal and dropout data reporting processes.

Auditee’s Comments

OSDE concurred with our finding and recommendations.
ED-OIG/A06G0008 	                                                                        Page 8 of 10



                                     OTHER MATTERS 



Schools submit graduate data on the OSDE Application for Accreditation reports each October.
These reports contain other data, such as the number of 12th graders at the school. Once
collected, the data were input to electronic files and transferred into the OSDE computer system
databases. The database used to calculate the graduation rate contains a field of data for the
number of 12th graders and a field of data for the number of graduates.

During our audit, we identified that OSDE miscalculated the 2002-2003 graduation rates for
schools, districts, and the State and reported the State 2002-2003 graduation rate as 86% when
the actual rate was 85%. Specifically, OSDE reported erroneous graduation rates that were
miscalculated using 12th grader data instead of graduate data. This occurred because the wrong
field of data was inadvertently selected for the rate calculation, and there were no checks or
balances to ensure the correct data field was used.

Since the erroneous rates were used to assess school and district performance, OSDE reviewed
the assessments to identify any schools that could have been negatively impacted by the
graduation rate error. The review found no schools were impacted in regard to the School
Improvement program due to the rate error.

In May 2006, OSDE personnel developed an additional check in preparation of the graduation
rate calculation that will ensure the correct data field is selected in the future. This additional
check was included in the internal instructions used by the personnel that perform the rate
calculations. Because OSDE took corrective action during our audit, no recommendations are
required.




                   OBJECTIVE, SCOPE, AND METHODOLOGY 



The overall objective was to determine whether OSDE’s required reporting of graduation and
dropout rates in the 2003-2004 CPSR were supported by reliable data and met the requirements
of the ESEA. Specifically, we determined whether the—

   • 	 Data for graduates were accurate and documented;
   • 	 Leaver data in the four-year cohort for dropouts were accurate, documented, and
       reported; and
   • 	 Leaver data in the reporting year for dropouts were accurate, documented, and reported.
ED-OIG/A06G0008 	                                                                       Page 9 of 10


To accomplish our objective, we—

   •	   Reviewed written policies and procedures for monitoring school supplied data;
   •	   Reviewed applicable laws, regulations, and other guidance;
   •	   Interviewed officials at OSDE and selected school districts; and
   •	   Reviewed student files at the three largest high schools in the selected school districts.

We judgmentally selected Tulsa Public Schools, Oklahoma City Public Schools, and Putnam
City School districts for review because they were the largest districts in the State.

For testing purposes, we had each district extract from their system three universes of students—

   • 	 One universe was of graduates for 2002-2003. From the graduates, we drew a random
       10% sample with a maximum of 50 and a minimum of 10 students for review at each
       high school from a universe of 2,518 students.
   • 	 The second universe was of students that left each school in the 9th grade in the 2000
       school year, the 10th grade in the 2001 school year, the 11th grade in the 2002 school year,
       and the 12th grade in the 2003 school year. This comprised our database of leavers from
       the cohort (due to system limitations one district was unable to provide the cohort leavers
       for review.) From the cohort leavers, we drew a 10% random sample of students (with
       the same minimum/maximum as above) that left the cohort at each high school to ensure
       they were properly classified from a universe of 1,792 students.
   • 	 The third universe was of students that left school during the 2003-2004 reporting year.
       From this extract, we drew a 10% random sample with a maximum of 50 and a minimum
       of 10 students at each high school to ensure they were properly classified from a universe
       of 3,054 students.

To achieve our audit objective, we relied, in part, on computer-processed data related to the
student information contained in each district’s database. We verified the completeness of the
data by comparing source records to computer-generated data, and verified the authenticity by
comparing computer-generated data to source documents. Based on these tests, we concluded
that the data were sufficiently reliable to be used in meeting the audit’s objective.

We conducted our fieldwork at OSDE, OKCPS, TPS, and PCS between February 7, 2006, and
June 15, 2006. An exit conference was held with OSDE officials on September 8, 2006.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.
ED-OIG/A06G0008                                                                      Page 10 of 10



                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Henry Johnson
                              Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              400 Maryland Ave., SW
                              Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                             Sincerely,


                                             /s/
                                             Sherri L. Demmel
                                             Regional Inspector General
                                                 for Audit

Attachment
                                 SANDY GARRETT 

              STATE SUPERINTENDENT OF PUBLIC INSTRUCTION 

                          STATE OF OKLAHOMA 


                                                October 4, 2006

                                                                           Control Number
                                                                        ED-OIG/A06G0008

Ms. Sherri L. Demmel
Regional Inspector General for Audit
United States Department of Education
Office of Inspector General
1999 Bryan Street, Harwood Center, Suite 1440
Dallas, Texas 75201-6817

Dear Ms. Demmel:

         On September 12,2006, the Oklahoma State Department of Education (OS DE) received
Draft Audit Report, ED-OIGIA06G008. The OSDE appreciates the opportunity to respond to the
Office of Inspector General's (OIG) findings outlined in its draft audit report. The OSDE does
not disagree with the findings. According to your letter our response was due in 30 days.


Response to Recommendations:

1.1      The Office of Accreditation at the Oklahoma State Department of Education will collect
for the 2005-2006 school year the number of students who graduated in the standard number of
years. This information is collected on the October 1 accreditation report. For graduation rate
calculations the number of students who graduated in the standard number of years will be used
as the numerator.

1.2    Beginning with the graduation rate calculation for the 2005-2006 school year the
number of students who continue in school and do not graduate will be included in the
denominator as part of the calculation.

2.1     Beginning immediately, official correspondence from the State Superintendent will be
sent to each district superintendent announcing ongoing videoconferences designed to help
personnel in our 540 school districts, who have responsibility for reporting dropouts to the
Department, accurately gather and report that data. The videoconferences will begin Friday,



                         OKLAHOMA STATE DEPARTMENT OF EDUCATION 

              2500   NORTH LINCOLN BOULEVARD, OKLAHOMA CITY, OK 73105-4599           

                             (405) 521-3301,FAX: (405)521-6205 

                                       http://sde.state.ok.us 

                               FrRST IN THE TWENTy-FIRST
                                         A   recycled paper
Ms. Sherri L. Deromel
Regional Inspector General for Audit
Control Number ED-DIGIA06G0008
Page 2
October 4, 2006


December 8, 2006, and will be broadcast quarterly to all school districts. In addition, upon
request, Dr. Meritt, the only staff member with responsibilities for dropout reporting, will go to
all schools requesting on-site professional development and technical assistance.

2.2    While on-site, Dr. Meritt will monitor graduate numbers to source documents. In
addition, a random sample of the other districts will be reviewed regarding graduation and
dropout data collection.

2.3     The Wave staff is in the process of revising guidance for GainILoss codes, withdrawal
definitions, and required documentation for all districts reporting student information online.
Correspondence was mailed to the school districts on September 25, 2006, with the directions for
online reporting of dropout information with additional information and a sample form that will
simplify withdrawal of a student which we believe will greatly reduce the numerous decision
points that may be impeding the efficient and expedient, not to mention accurate reporting of
dropouts.




                                                 Sandy
                                                 State Superintendent

rm

Enclosures: 2006-2007 Graduation Report
            September 25, 2006, Letter
            Student Dropout Reporting Instructions
            Student Withdrawal Form
                                                                                           Sandy Garrett 

                                                                             State Superintendent of Public Instruction 

                                                                             Oklahoma State Department of Education 


                                                                           2006-2007 GRADUATION REPORT


                                                                    CODE        IT] I I I I II I I I
                                                                                  County           District                  Site



                            Please report the number of students that a:raduated the school year of 2005-2006 in each applicable catea:ory.

 ;[;)'0 ':k';'   ,";};,§ .t;;T[;?,',;~;:;,;~;                        Alaskan Native or
 r~\~;"~~!i~2;~~' "!Jfl~~l~f~'                         Black         American Indian         Hispanic                Asian          Pacific Islander   White or Other     Total
 rJ:{;~?t :it;

 ~1~'!;1~~';!L,,~\: ..' , i "                   Male       Female     Male      Female     Male   Female      Male       Female     Male     Female    Male    Female 

2005-06 Graduates
Total by ethnic group
Students who graduate with a
High School diploma in the
standard number of years (4 years)
Number of graduates on IEP*

Number of graduates identified 

asELL** 

Number of graduates that were 

eligible for free and reduced-price 

lunch 


 *IEP: Individual Educational Program
**ELL: English Language Learners are students who have been identified by federally required English Proficiency test.
                                          SANDY GARRETT
                 STATE SUPERINTENDENT OF .PUBLIC INSTRUCTION
                             STATE OF OKLAHOMA
                                                           September 25,2006


Dear Administrator:

     The enclosed instructions are being sent to assist you with the Student Dropout Report. THE FOURm
QUARTER REPORT IS DUE ONLINE NO LATER mAN THURSDAY, OCTOBER 5,2006. In order that
we may be in compliance with the United States Department of Education's Common Core of Data, the dropout
reporting year is defined as October 1 through September 30. Take a moment to read the enclosed instructions and
the Student Dropout Reporting Procedures located online under number one of the instructions-you will not be
able to effectively record dropouts if you are not familiar with the information contained in the procedures
manual.                                                                                                    .

     An online Student Dropout Report shall be prepared quarterly (every three months) for each school site in
Oklahoma that serves Grades 7 through 12. For dropout reporting purposes, quarters are defined as the three­
month periods ending December 31, March 31, June 30, and September 30. Quarterly reports from each
dropout reporting site are to be submitted online by the fifth of the month following the end of the quarter under
report. THEREFORE, if school .is not in session on December 31 and June 30, submit the quarterly report on the
last day that you are in session. For example, if you will be out of school for winter break on December 31 and
unable to certify your report by January 5, submit the report on the last day you are at the school site. If the reports
are not submitted on time, the District will be issued a deficiency from the Regional Accreditation Officer at
the time of the Accreditation visit.                                                            .

    Districts who have reported one or more dropouts from October 1, 2005, through SeptemJ)er 30, 2006, will
be required to complete and submit the Reentry Checklist. The Reentry Checklist is to be submitted online
no later than Monday, October 23, 2006. See the enclosed instructions as well as the Student Dropout Reporting
Procedures located online for complete instructions.

    To assist you in reporting your dropout data more efficiently, videoconferences on dropout procedures will
be offered quarterly. Our first videoconference will be Friday, December 8, 2006, at 1:30 p.m. The quarterly
video conferences schedule will be posted on the Oklahoma State Department of Education Web site
<http://sde.state.ok. us>.

    Please contact Ms. Ginger DiFalco in the School Improvement Office at (405) 522·0276 if you have questions
regarding student dropout reporting.

                                                            Sincerely,



                                                            MaryL.
                                                            Assistant Superintendent
                                                            School Improvement

gmd

Enclosure
                            OXLAHOMA STA.TE DEPARTMENT 01' EDUCA.TION
                2S00    NORTH LINCOLN BOULEVARD. OICl.A.HOMA. CITY. OK 7310S-4S99
                                    (40S) S21-3301. FAX: (40S) S21-620S
                                                ht;tp:lI.de••tate.ok.v..           .
                                      FIRST IN THE TWENTY-FIRST
                                                   O_cled_
                                                                                                Attachment

                            Sandy Garrett, State Superintendent of Public Instruction 

                                   Oklahoma State Department of Education 



               STUDENT DROPOUT REPORTING INSTRUCTIONS
                                             September 25, 2006


Please follow the steps listed below to complete the student dropout reporting process.

  1. 	 Access the State Department of Education home page at <http://sde.state.ok.us>.

  2. 	 Scroll down to locate the School District Reporting Site link on the right side of the home page.
       Click on the School District Reporting Site link (red oval with white letters).

  3. 	 Enter username and password; click the logon button. Our office does not issue the username or
       password. Please contact the superintendent or district logon administrator if you do not have a
       username or password. If you do not know the password, you must follow specific directions to
       retrieve your password. The directions are contained in the "Help" link located on the left
       side of the School District Reporting Site screen.

  4. 	 Locate the Student Dropout Report link on the systems menu and click on the link. If this option
       does not show up on the systems menu, contact your district logon administrator to obtain access to
       the report.

  5. 	 When you have logged on to the Student Dropout Report site, the dropout report will default to the
       quarterly report that is current. ](f you wish to work on a past due report YOU MUST COMPLETE
       A TWO-STEP PROCESS TO SELECT A DIFFERENT QUARTERLY REPORT. 1) Select the desired
       quarter from the drop down box, and 2) Click the Change Quarter "button."

  6. 	 Read the information and follow the directions located in the box of Instructions. Enter
       information as instructed. If you have questions, click on the "Help" button located at the top of
       each screen. The "Help" information is designed to provide instructions only for the page
       displayed on the screen. REMEMBER-Complete does not mean certified! The Student
       Dropout Report has not been sent to the State Department of Education unless the Report
       Status IS LISTED AS CERTIFIED.

  7. 	 Student Dropout Reports. are due by the 5 th of the month following the end of each quarter.
       For example, the fourth quarter report ends on September 30, 2006; therefore, the report must be
       certified no later than October 5, 2006. For dropout reporting purposes, quarters are defined as
       the three-month periods ending December 31, March 31, June 30, and September 30. If the reports
       are not submitted on time, the District will be issued a deficiency from the Regional
       Accreditation Officer at the time of the Accreditation visit.

  8. 	 The Reentry Checklist will be available to each school site that has reported at least one dropout
       during the October 1,2005, through September 30, 2006, reporting period. The Reentry Checklist
       will immediately appear as one of the tabs across the top of the page when the fourth quarter
       report is certified. The Reentry Checklist is due no later than October 23, 2006.

  9. 	 A sample Withdrawal Form is available on the Student Dropout Report Site that will simplify
       withdrawal of a student. The form may greatly reduce the numerous decision points that may be
       impeding the efficient and expedient, not to mention .accurate reporting of dropouts.

If you have further questions, please call Ms. Ginger DiFalco at (405) 522-0276 in the School
Improvement Office.
                                                                                                                        Attachment


                                                  Student Withdrawal Form
     This school is accredited by the Oklahoma State Department of Education. A complete transcript will be sent upon request.


Name of School: ______________________________                      High School Jr. High Middle Elementary Other _____.__________
                                                                                     CIRCLE ONE
Telephone Number of School:      ~(I.---___)L--_______________            Fax Number of School: _..l.(____..1-___________________

NameofSrudent: _____________________.________                        Date of Birth: ______                      Classification:

Date Last Attended: _ _ _ _ _ _ __                Date of Withdrawal: _ _ _ _ _ _ _ __                          Withdrawal Code: ________

Reason for Withdrawal: ________________._________                         Srudent Testing Number: __________________________


Subject                               Name of Teacher            Withdrawal        Name of Text                                        Teacher
                                                                 Grade %                                                               Initials
1.
2.
3.
4.
5.
6.
7.
Clearance: 


Library: _ _ Locker:                 Cafeteria:         ID:          Parking: _ _ Counselor: 


Reported New Address of Srudent: _________._____________________________________________._ _________ 


Records will be requested by _______________________ School in,________                                     city, state of _ _ _ _ _ _ _ __ 



                               List three relatives not residing with the student/family.
                                                   Telephone Number                                                    Relationship to Student




                                                                                                                        (         )
Printed Name of Parent or Legal Guardian            Signature of Parent or Legal Guardian                              Daytime Phone Number




Signature of Registrar                                                       Signature of Assistant Principal


     NOTE: OKLAHOMA STATUTES REQUIRE THAT A STUDENT BE REPORTED AS A DROPOUT UNLESS WRITTEN NOTIFICATION OF
                         HOMESCHOOLING OR A REQUEST FOR RECORDS HAS BEEN RECEIVED.
